i

!

r

5

Uo.
X# TUL SUPKENE CDU«T op THE
UNHID STATES

Wfurks^ \AocAm4 - feigner
V5.

N\*A Inch &x!\f fD3C.it.Klj- (WponAeM

i
I

i
s

i

I
i

1
i

!
;(
j

!
i!
'■

1

]

i
i
!

1
!

I

i
l
i

*

i
?

KPPMDIX

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14561-A
MAURICE WOODARD,
Petitioner-A ppellant.
versus
SECRETARY, DEPARTMENT OF CORRECTIONS
State of Florida,
Defendant-Appellee.
Appeal from the United States District Court
for the Northern District of Florida
ORDER:
Maurice Woodard s motion for a certificate of appeaaability is DENIED because he has
failed to make a substantial showing of the denial of a constitutional right. See 28 U.S.C.
§ 2253(cX2). Woodard s motion for leave to proceed on appeal mforma pauperis is DENIED AS
MOOT.

UNITED STaWsoRCU IT JU DC E

Case 4:17-cv-00258-WS-MJF Document 25 Filed 08/26/19 Page 1 of 2

Page 1 of 2

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION

r

;-:r
V

‘j.

MAURICE WOODARD,
Petitioner,
4:17cv258-WS/MJF

v.

SECRETARY, DEPT. OF
CORRECTIONS,
Respondent.

ORDER ADOPTING THE MAGISTRATE JUDGE’S
REPORT AND RECOMMENDATION
Before the court is the magistrate judge's report and recommendation (ECF
No. 23) docketed August 16, 2019. The magistrate judge recommends that
Petitioner’s petition for writ of habeas corpus be DENIED. Petitioner (“Woodard”)
has filed objections (ECF No. 24) to the magistrate judge’s report and
recommendation.
The undersigned has reviewed the record in light of Woodard’s objections
but finds no basis upon which to reject the magistrate judge’s report and
recommendation. The undersigned agrees that Woodard has failed to demonstrate

-

1

Case 4:17-cv-00258-WS-MJF Document 25 Filed 08/26/19 Page 2 of 2

Page 2 of 2

that he is entitled to relief under 28 U.S.C. § 2254. Accordingly, it is ORDERED:
1. The magistrate judge’s report and recommendation (ECF No. 23) is
ADOPTED and incorporated by reference into this order.
2. Woodard’s § 2254 habeas corpus petition (ECF No. 1), challenging the
judgment of conviction and sentence in State ofFlorida v. Maurice Woodard, Leon
County Circuit-Court Case No. 2004—CF-3842, is DENIED.
3. A certificate of appealability is DENIED.
4. Leave to appeal in forma pauperis is DENIED
5. The clerk is directed to enter judgment, stating: “Maurice Woodard’s
petition for writ of habeas corpus is DENIED.” The clerk is further directed to
close the case.
DONE AND ORDERED tl

26th

day of

August

2019.

s/ William Stafford
WILLIAM STAFFORD
SENIOR UNITED STATES DISTRICT JUDGE

s'")

\r

r

l-

i
'/

Case 4:17-cv-00258-WS-MJF Document 26 Filed 08/26/19 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
MAURICE WOODARD
VS

CASE NO. 4:17-CV-258-WS-MJF

SECRETARY DEPARTMENT OF
CORRECTIONS
JUDGMENT

Maurice Woodard’s petition for writ of habeas corpus is DENIED.

JESSICA J. LYUBLANOVITS
CLERK OF COURT
August 26. 2019
DATE

s/Tonisha Young
Deputy Clerk: Tonisha Young

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page lot 48

UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF FLORIDA
TALLAHASSEE DIVISION
MAURICE WOODARD,
Petitioner,
Case No. 4:17-cv-258-WS/MJF

v.

SECRETARY, DEPARTMENT OF
CORRECTIONS,
Respondent.

REPORT AND RECOMMENDATION
Petitioner Maurice Woodard has filed a petition for writ of habeas corpus
under 28 U.S.C. § 2254 (Doc. 1), with supporting memorandum (Doc. 2).
Respondent (“the State”) answered, providing relevant portions of the state court
record. (Doc. 17). Woodard replied. (Doc. 19). The undersigned concludes that no
evidentiary hearing is required for the disposition of this matter, and that Woodard
is not entitled to habeas relief.1

i

This case was referred to the undersigned to address preliminary matters and to
make recommendations regarding dispositive matters. See N.D. Fla. Loc. R.
72.2(B); see also 28 U.S.C. § 636(b)(1)(B), (C); Fed. R. Civ. P. 72(b).
Page 1 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 2 of 48

I.

Background and Procedural History2
On October 27,2004, Petitioner Woodard called Marvin Cannon mid-evening

and asked Cannon if he wanted to “pull a lick with him”—a colloquialism for
robbing someone. Cannon agreed. Woodard did not give Cannon any details about
the robbery, but merely instructed Cannon that his role was to provide transportation.
Cannon obliged, borrowed his sister’s car, and drove to pick up Woodard.
Woodard, in the meantime, called his robbery target Ephram Hagins and,
claiming to be Marvin Cannon, told Hagins that he was interested in buying drugs.
Hagins was acquainted with Cannon because the two previously had attended school
together. Although Hagins did not recognize the caller’s voice, Hagins assumed it
was Cannon based on Woodard’s misrepresentation of his identity. Hagins told
Woodard (still believing he was Cannon), that he would make some phone calls.
Marvin Cannon picked up Woodard and Alfred Denson around 9:00 or 9:30
p.m.3 Woodard and Denson entered the car with a black bag. Woodard spoke to

2 The facts are drawn from the evidence presented at trial, viewed in the light most
favorable to the State. (Doc. 17, Attachs. 3-4, Exs. B5A-B5C (trial transcript)); see
also Jackson v. Virginia, 443 U.S. 307 (1979).
3 Alfred Denson, Jr. was tried as a co-defendant along with Woodard, but was
acquitted.
Page 2 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 3 of 48

Hagins on the phone (with Hagins still believing he was speaking to Cannon), and
the pair agreed to meet at a store behind Hagins’s apartment complex in Tallahassee,
Florida. This area had a BP gas station, a Circle K, a Jamaican Way store, and a
Wing Zone restaurant.
Woodard and Denson took ski masks out of their black bag. Cannon drove
them to the Wing Zone. As he drove, he noticed that Woodard, who was sitting in
the front passenger seat, also removed a gun from the black bag.
After Cannon parked, Woodard instructed Cannon: (1) to position himself
near the trash can in front of the Jamaican Way store which was next to the Circle
K, (2) to wait there for the victim, (3) that the victim would approach Cannon, (4)
that the victim was a large, black, bald-headed man known as “E”, and (5) that once
Cannon and the intended victim made contact, Cannon should show the victim
money and discuss drugs. Cannon agreed, still not knowing the intended victim’s
identity or that he and the intended victim were acquainted.
Hagins arrived at the shopping plaza between 10:30 and 11:00 p.m., parked
in front of the Jamaican Way store, and went into the Circle K. Woodard called
Cannon and informed him that the intended victim had arrived. When Hagins came
out of the store, Cannon asked Hagins if he was “E.” Hagins responded
affirmatively. Cannon then recognized Hagins from school. Cannon asked Hagins if
Page 3 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 4 of 48

he had any drugs. Hagins replied no, but got on his cell phone and returned to his
car to make phone calls. Cannon waited outside Hagins’s car.
Within minutes, Woodard and Denson ran up behind Hagins’s car. Hagins
looked up from inside his car and saw the pair. Woodard was wearing all black
clothing including a black ski mask. Denson was wearing a sweater-looking shirt
with a hood. Woodard and Denson each had a firearm.
Hagins tried to get out of his car, but Woodard hit Hagins in the face with his
gun. Woodard, Denson and Cannon then pushed Hagins back inside his car.
Woodard ordered Hagins into the passenger seat and demanded Hagins’s car key.
Hagins complied, and Woodard got in the driver’s seat. Denson got in the back seat.
Cannon remained outside.
Woodard drove Hagins’s car out of the shopping plaza and onto a highway.
Five to six miles later, Woodard stopped and ordered Hagins from the car at
gunpoint. Woodard and Denson tied Hagins with speaker wire from the car and left
him on the side of the road. Hagins eventually freed himself and flagged down a
passerby. Hagins informed the police that Cannon was one of the attackers. Hagins
was taken to the hospital and treated for head injuries.
Cannon, in the meantime, drove to his sister’s house and waited to hear from
Woodard. Between 30 to 60 minutes after Cannon left the shopping plaza, Woodard
Page 4 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 5 of 48

called Cannon. Woodard initially had tried to reach Cannon by calling Cannon’s
mother’s home. Woodard made both calls from Hagins’s cell phone.
Hagins testified at trial that the last time he used his cell phone was at the
shopping plaza during his encounter with Cannon outside the Jamaican Way. During
the carjacking, Hagins dropped his cell phone in the car, and he saw Woodard use
it. Hagins also recalled that his cell phone remained in the car after Woodard forced
him out. Hagins’s cell phone records confirmed that Woodard called not only
Cannon from Hagins’s cell phone, but also Woodard’s then-girlfriend Shontecia
Murray.
Woodard was charged in Leon County Circuit Court Case No. 2004-CF-3842,
with three crimes: Armed Carjacking; Kidnapping to Facilitate Felony with a
Firearm; and Aggravated Battery with a Firearm. (Doc. 17, Attach. 1, Ex. Bl, p. 2
(third amended information), pp. 3-8 (complaint/probable cause affidavit)).4
Woodard and co-defendant Denson’s first trial ended in a mistrial due to a hung jury.
(See Doc. 17, Attach. 9, Ex. FI, p. 47).

4 Where a page of an exhibit bears more than one page number, the undersigned
cites the number appearing at the bottom right comer of the page.
Page 5 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 6 of 48

Woodard and Denson were re-tried on June 12-14, 2006. The State presented
testimony from Hagins, Cannon, law enforcement officers, the custodian of Hagins’s
cell phone records, and Shontecia Murray. The State also introduced records from
Mr. Hagins’s cell phone confirming Woodard’s various calls. The State introduced
inculpatory letters Woodard wrote to his sister and to a co-inmate at the Leon County
Jail (Derrick Holmes) after the first trial. The letters directed them to memorize a
particular story to support Woodard’s defense and discredit Cannon’s anticipated
trial testimony. Woodard’s defense theory was that the two masked carjackers were
Cannon’s cousins whom Cannon was trying to protect by implicating Woodard and
Denson. The jury found Woodard guilty of all three crimes as charged. (Doc. 17,
Attach. 2, Ex. B3, pp. 446-50 (verdict)).
The trial court adjudicated Woodard guilty and sentenced him as a Prison
Releasee Reoffender to life in prison. (Doc. 17, Attach. 2, Ex. B3, pp. 458-67
(judgment and sentence); Ex. B6 (transcript of sentencing).5 The Florida First
District Court of Appeal (“First DCA”) affirmed on August 5, 2008,per curiam and
without written opinion. Woodard v. State, 995 So. 2d 500 (Fla. 1st DCA 2008)

5 The court sentenced Woodard to concurrent terms of life in prison for the
carjacking, life in prison for the kidnapping, and 15 years in prison for the aggravated
battery.
Page 6 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 7 of 48

(Table) (copy at Doc. 17, Attach. 5, Ex. B9). Woodard’s motion for rehearing was
denied on November 10, 2008. (Doc. 17, Attach. 5, Ex. B11).
On November 9, 2009, Woodard filed a pro se motion for postconviction
relief under Florida Rule of Criminal Procedure 3.850, which he twice amended.
(Doc. 17, Attach. 6, Ex. El, pp, 1-48 (original motion); Ex. El, pp. 49-59 (amended
motion); Ex. El, pp. 77-118 (second amended motion)). The state circuit court
ordered an evidentiary hearing and appointed counsel to assist Woodard. (Doc. 17,
Attach. 6, Ex. El, pp. 139, 140-47).
Woodard’s postconviction evidentiary hearing was held on January 11, 2013.
(Doc. 17, Attach. 7, Ex. E2). At the close of the hearing, the state circuit court denied
relief, explaining its reasons on the record. (Doc. 17, Attach. 7, Ex. E2, pp. 266-71
(evidentiary hearing transcript)). The circuit court entered a written final order that
day which stated, in relevant part: “Based on the reasons as announced on the record,
the court finds that defendant has failed to show that he received ineffective
assistance of counsel or that he was prejudiced by any alleged deficiency.” (Doc. 17,
Attach. 6, Ex. El, p. 180). The First DCA affirmed per curiam without written
opinion on July 29, 2014. Woodard v. State, 147 So. 3d 991 (Fla. 1st DCA 2014)
(Table) (copy at Doc. 17, Attach. 9, Ex. E6). The mandate issued August 26, 2014.
(Doc. 17, Attach. 9, Ex. E7).
Page 7 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 8 of 48

While his first postconviction appeal was pending, Woodard filed a second
Rule 3.850 motion on October 24, 2013, alleging that he had “newly discovered
evidence” of his innocence. Woodard explained that Marvin Cannon recanted his
trial testimony. (Doc. 17, Attach. 9, Ex. F, pp. 1-19). The state circuit court ordered
an evidentiary hearing and appointed counsel to assist Woodard. (Doc. 17, Attach.
9, Ex. FI, pp. 24-35). The evidentiary hearing was held on April 9, 2015. (Doc. 17,
Attach. 9, Ex. FI, pp. 52-149 (evidentiary hearing transcript)). On August 12, 2015,
the state circuit court denied relief by written order. (Doc. 17, Attach. 9, Ex. FI, pp.
47-50). The First DC A affirmed per curiam without written opinion on March 23,
2017. Woodard v. State, 224 So. 3d 218 (Fla. 1st DCA 2017) (Table) (copy at Doc.
17, Attach. 12, Ex. F6). The mandate issued April 18, 2017. (Doc. 17, Attach. 12,
Ex. F7).
Woodard filed his pro se federal habeas petition on May 26, 2017, (Doc. 1).
Woodard’s petition raises five claims of ineffective assistance of trial counsel, and
one claim of actual innocence. (Doc. 1, pp. 4-6 in ECF; Doc. 2). The State asserts
that Woodard is not entitled to habeas relief on any claim because each claim is
either procedurally defaulted, devoid of merit, or both. (Doc. 17, pp. 7-55).

Page 8 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 9 of 48

II.

Governing Legal Principles
A.

Section 2254 Standard of Review

A federal court “shall not” grant a habeas corpus petition on any claim that
was adjudicated on the merits in state court unless the state court’s decision “was
contrary to, or involved an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court.” 28 U.S.C. § 2254(d)(1). The United
States Supreme Court explained the framework for § 2254 review in Williams v.
Taylor, 529 U.S. 362 (2000).6 In Williams, Justice O’Connor described the
appropriate test:
Under the “contrary to” clause, a federal habeas court may grant
the writ if the state court arrives at a conclusion opposite to that reached
by this court on a question of law or if the state court decides a case
differently than this Court has on a set of materially indistinguishable
facts. Under the “unreasonable application” clause, a federal habeas
court may grant the writ if the state court identifies the correct
governing legal principle from this Court’s decisions but unreasonably
applies that principle to the facts of the prisoner’s case.

6 Unless otherwise noted, references to Williams are to the majority holding, written
by Justice Stevens for the Court (joined by Justices O’Connor, Kennedy, Souter,
Ginsburg, and Breyer) in parts I, III, and IV of the opinion (529 U.S. at 367-75, 39099); and Justice O’Connor for the Court (joined by Justices Rehnquist, Kennedy,
Thomas, and—except as to the footnote—Scalia) in part II (529 U.S. at 403-13).
The opinion of Justice Stevens in Part II was joined by Justices Souter, Ginsburg,
and Breyer.
Page 9 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 10 of 48

Id., 529 U.S. at 412-13 (O’Connor, J., concurring).
Under the Williams framework, the federal court must first determine the
“clearly established Federal law,” namely, “the governing legal principle or
principles set forth by the Supreme Court at the time the state court render[ed] its
decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). After identifying the
governing legal principle, the federal court determines whether the state court’s
adjudication is contrary to the clearly established Supreme Court case law. The
adjudication is “contrary to” federal law only if either the reasoning or the result
contradicts the relevant Supreme Court cases. See Early v. Packer, 537 U.S. 3, 8
(2002) (“Avoiding th[e] pitfalls [of § 2254(d)(1)] does not require citation to our
cases—indeed, it does not even require awareness of our cases, so long as neither
the reasoning nor the result of the state-court decision contradicts them.”).
If the “contrary to” clause is not satisfied, the federal court determines whether
the state court “unreasonably applied” the governing legal principle set forth in the
Supreme Court’s cases. The federal court defers to the state court’s reasoning unless
the state court’s application of the legal principle was “objectively unreasonable” in
light of the record before the state court. See Williams, 529 U.S. at 409; Holland v.
Jackson, 542 U.S. 649, 652 (2004). “[E]ven a strong case for relief does not mean

Page 10 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 11 of 48

the state court’s contrary conclusion was unreasonable.” Harrington v. Richter, 562
U.S. 86, 102 (2011).
Section 2254(d) also allows habeas relief for a claim adjudicated on the merits
in state court where that adjudication “resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State
court proceeding.” 28 U.S.C. § 2254(d)(2). The “unreasonable determination of the
facts” standard is implicated only to the extent the validity of the state court’s
ultimate conclusion is premised on unreasonable fact finding. See Gill v. Mecusker,
633 F.3d 1272, 1292 (11th Cir. 2011). As with the “unreasonable application”
clause, the federal court applies an objective test. See Miller-El v. Cockrell, 537 U.S.
322, 340 (2003) (holding that a state court decision based on a factual determination
“will not be overturned on factual grounds unless objectively unreasonable in light
of the evidence presented in the state court proceeding.”). Federal courts “may not
characterize . . . state-court factual determinations as unreasonable merely because
we would have reached a different conclusion in the first instance.” Brumfield v.
Cain, 576 U.S. —, —, 135 S. Ct. 2269, 2277 (2015) (quotation marks omitted).
The Supreme Court has often emphasized that a state prisoner’s burden under
§ 2254(d) is “difficult to meet, . . . because it was meant to be.” Richter, 562 U.S.
at 102. The Court elaborated:
Page 11 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 12 of 48

As amended by AEDPA, § 2254(d) stops short of imposing a complete
bar on federal-court relitigation of claims already rejected in state
proceedings. Cf. Felker v. Turpin, 518 U.S. 651, 664, 116 S. Ct. 2333,
135 L.Ed.2d 827 (1996) (discussing AEDPA’s “modified res judicata
rule” under § 2244). It preserves authority to issue the writ in cases
where there is no possibility fairminded jurists could disagree that the
state court’s decision conflicts with this Court’s precedents. It goes no
further. Section 2254(d) reflects the view that habeas corpus is a “guard
against extreme malfunctions in the state criminal justice systems,” not
a substitute for ordinary error correction through appeal. Jackson v.
Virginia, 443 U.S. 307, 332, n. 5, 99 S. Ct. 2781, 61 L. Ed. 2d 560
(1979) (Stevens, J., concurring in judgment). As a condition for
obtaining habeas corpus from a federal court, a state prisoner must
show that the state court’s ruling on the claim being presented in federal
court was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility
for fairminded disagreement.
Richter, 562 U.S. at 102-03 (emphasis added).
A federal court may conduct an independent review of the merits of the
petitioner’s claim only if it first finds that the petitioner satisfied § 2254(d). See
Panetti v. Quarterman, 551 U.S. 930, 954 (2007). Even then, the writ will not issue
unless the petitioner shows that he is in custody “in violation of the Constitution or
laws and treaties of the United States.” 28 U.S.C. § 2254(a).
B.

Clearly Established Federal Law Governing Claims of Ineffective
Assistance of Counsel

The Supreme Court follows a two-pronged test for evaluating claims of
ineffective assistance of counsel. See Strickland v. Washington, 466 U.S. 668 (1984).

Page 12 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 13 of 48

The petitioner must show (1) his counsel’s performance was constitutionally
deficient, and (2) the deficient performance prejudiced him. See id. at 687. “First,
petitioner must show that ‘counsel’s representation fell below an objective standard
of reasonableness.’ Second, petitioner must show that ‘there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.’” Darden v. Wainwright, All U.S. 168, 184 (1986)
(quoting Strickland, 466 U.S. at 694).
“Judicial scrutiny of counsel’s performance must be highly deferential,” and
courts should make every effort to “eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s challenged conduct, and to evaluate the
conduct from counsel’s perspective at the time.” Strickland, 466 U.S. at 689. Trial
counsel is “strongly presumed to have rendered adequate assistance and made all
significant decisions in the exercise of reasonable professional judgment.” Id. at 690.
The burden to overcome that presumption and show that counsel’s performance was
deficient “rests squarely on the defendant.” Burt v. Titlow, 571 U.S. 12, 22-23
(2013); Cullen v. Pinholster, 563 U.S. 170, 189 (2011) (“To overcome that
presumption, a defendant must show that counsel failed to act reasonably
considering all the circumstances.” (quotation marks and alterations omitted)).

Page 13 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 14 of 48

Strick.lan.cTs prejudice prong requires a defendant to establish a “reasonable
probability” of a different result. See Strickland, 466 U.S. at 694. A reasonable
probability is one that sufficiently undermines confidence in the outcome. Id. “The
likelihood of a different result must be substantial, not just conceivable.” Richter,
562 U.S. at 112.
When a district court considers a habeas petition, the state court’s findings of
historical facts in the course of evaluating an ineffectiveness claim are subject to the
presumption of correctness, while the performance and prejudice components are
mixed questions of law and fact. See Strickland, 466 U.S. at 698. “Surmounting
Strickland’s high bar is never an easy task.” Padilla v. Kentucky, 559 U.S. 356, 371
(2010). “Establishing that a state court’s application of Strickland was unreasonable
under § 2254(d) is all the more difficult.” Richter, 562 U.S. at 105 (citations
omitted). The Supreme Court explained:
The standards created by Strickland and § 2254(d) are both
“highly deferential,” and when the two apply in tandem, review is
“doubly” so. The Strickland standard is a general one, so the range of
reasonable applications is substantial. Federal habeas courts must guard
against the danger of equating unreasonableness under Strickland with
unreasonableness under § 2254(d). When § 2254(d) applies, the
question is not whether counsel’s actions were reasonable. The question
is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.
Id. (citations omitted).
Page 14 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 15 of 48

Page 15 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 16 of 48

III.

Discussion
Ground One

“Denial of Effective Assistance of Counsel, in Violation
of Sixth and Fourteenth Amendment Right of the
United States and Florida Constitution, by Counsel’s
Failure to Conduct an Adequate Pre-Trial
Investigation, Interview and Depose Terrell Powell,
Derick Holmes, and Canary Denson, and for Failure to
Move to Suppress Unlawfully Seized Evidence.” (Doc.
1. p. 41

Woodard claims that his trial counsel, Attorney John Kenny, was ineffective
for failing to interview three witnesses: Terrell Powell, Derrick Holmes, and Canary
Denson. (Doc. 1, p. 4 in ECF). Woodard also claims that Attorney Kenny was
ineffective for failing to move to suppress “unlawfully seized evidence,” namely,
the letters he wrote to his sister and Derrick Holmes. (Id.).
The State asserts that Woodard’s claim is partially procedurally defaulted,
because although Woodard raised all of these issues in his second amended Rule
3.850 motion, he abandoned two issues (counsel’s failure to investigate Canary
Denson and failure to file a motion to suppress) by failing to raise them in his
counseled postconviction appeal. Accordingly, these aspects of Woodard’s claim are
procedurally defaulted. (Doc. 17, pp. 9-11). The State argues in the alternative that
even assuming to Woodard’s benefit that he properly exhausted all aspects of this

Page 16 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 17 of 48

claim, he is not entitled to habeas relief because he fails to meet § 2254(d)’s
demanding standard. (Doc. 17, pp. 26-32).
Woodard replies that he did not abandon any aspect of this claim in his
postconviction appeal; that his appellate brief “was filed pro se with sufficient facts
to state a claim”, and that nothing in the First DCA’s summary decision indicates
that it deemed any part of the claim waived. (Doc. 19, pp. 3-4).
A.

Woodard Procedurally Defaulted His Sub-Claims Involving
Canary Denson and Motion to Suppress

Before bringing a § 2254 habeas action, the petitioner must exhaust all
available state court remedies for challenging his conviction, 28 U.S.C. § 2254(b)(1),
thereby giving the State the ‘“opportunity to pass upon and correct’ alleged
violations of its prisoners’ federal rights.” Duncan v. Henry, 513 U.S. 364, 365
(1995) (quotingPicard v. Connor, 404 U.S. 270,275 (1971) (citation omitted)). The
petitioner “must give the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round of the State’s established
appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999); Picard,
404 U.S. at 277-78.
A claim that was not properly exhausted in state court and can no longer be
litigated under state procedural rules is considered procedurally defaulted, i.e.,

Page 17 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 18 of 48

procedurally barred from federal review. Boerckel, 526 U.S. at 839-40, 848;
Coleman v. Thompson, 501 U.S. 722, 735 n.l (1991) (“[I]f the petitioner failed to
exhaust state remedies and the court to which the petitioner would be required to
present his claims in order to meet the exhaustion requirement would now find the
claims procedurally barred . . . there is a procedural default for purposes of federal
habeas . . . .” (citations omitted)). A petitioner seeking to overcome a procedural
default must “demonstrate cause for the default and actual prejudice as a result of
the alleged violation of federal law, or demonstrate that failure to consider the claims
will result in a fundamental miscarriage of justice.” Coleman, 501 U.S. at 750.
Florida’s established postconviction process includes an appeal from an order
denying postconviction relief. See Fla. R. App. P 9.141(b)(3); see also Leonard v.
Wainwright, 601 F.2d 807, 808 (5th Cir. 1979); Rodwell v. Singletary, 114 F. Supp.
2d 1308, 1312 (M.D. Fla. 2000). Where, as here, a defendant appeals from an order
denying postconviction relief after an evidentiary hearing, he is required to file an
initial brief. Fla. R. App. Proc. 9.141(b)(3)(C). Issues not raised and argued in the
initial brief are abandoned. See Atwater v. Crosby, 451 F.3d 799, 809-10 (11th Cir.
2006) (citing Shere v. State, 742 So. 2d 215, 217 n.6 (Fla. 1999) (recognizing
Florida’s rule that an issue raised in an appellate brief which contains no argument
is abandoned)); see also Duest v. Dugger, 555 So. 2d 849, 851 (Fla. 1990) (holding
Page 18 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 19 of 48

that issues raised on appeal from an order denying postconviction relief were
procedurally barred when petitioner received an evidentiary hearing and failed to
fully brief and argue the points on appeal).
The state court record establishes that Woodard’s second amended Rule 3.850
motion raised counsel’s ineffectiveness concerning Terrell Powell as Ground 1-B;
counsel’s ineffectiveness concerning Canary Denson as Ground 1-C; counsel’s
ineffectiveness concerning Derrick Holmes as Ground 1-D; and counsel’s
ineffectiveness concerning the motion to suppress as Ground 1-E. (Doc. 17, Ex. El,
pp. 80-91). The state circuit court denied relief on all grounds after an evidentiary
hearing. Woodard appealed, and his postconviction counsel filed an initial brief.
(Doc. 17, Ex. E4). The initial brief, however, raised only one argument concerning
Ground 1, namely, that the circuit court erred by failing to resolve Ground 1-B
(concerning Powell) and Ground 1-D (concerning Holmes). (Doc. 17, Ex. E4, pp. iiii (Table of Contents), 2-6 (Statement of the Facts), 11-13 (Points of Argument on
Appeal and Summary of Argument), and 37-38 (Argument)). Woodard excluded
from his brief the ineffective assistance claims concerning Canary Denson (Ground
1-C) and the motion to suppress (Ground 1-E). The First DCA summarily affirmed.
Woodard’s failure to invoke one complete round of Florida’s established
appellate review process—by abandoning Grounds 1-C and 1-E on appeal—renders
Page 19 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 20 of 48

them unexhausted. Because any further attempt by Woodard to exhaust those issues
in state court would be futile, Grounds 1-C (concerning Denson) and 1-E
(concerning the motion to suppress) are procedurally defaulted. See Boerckel, 526
U.S. at 848 (holding that Alabama’s established appellate review process provided
for discretionary review in the state supreme court, and that petitioner’s filing of a
discretionary review petition but leaving out three issues he later included in his
federal habeas petition rendered the issues unexhausted and procedurally defaulted);
Coleman, 501 U.S. at 735 n.l; Sims v. Singletary, 155 F.3d 1297, 1311 (11th Cir.
1998) (“Sims abandoned the photograph component of this claim on appeal of the
denial of his motion for post-conviction relief. Therefore, this portion of the
argument is procedurally barred for federal habeas purposes.” (citing Lindsey v.
Smith, 820 F.2d 1137, 1143 (11th Cir. 1987))); see also, e.g., Baker v. Dep't of Corr.,
Sec’y, 634 F. App’x 689, 693 (11th Cir. 2015) (holding that the habeas petitioner’s
substantive double jeopardy claim—which was rejected on the merits by the
postconviction trial court—was procedurally defaulted on habeas review because

Page 20 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 21 of 48

the petitioner abandoned the claim in his postconviction appeal by failing to argue it
in his counseled initial brief or in his pro se brief).7
Woodard makes none of the requisite showings to excuse his procedural
default. Woodard’s procedural default bars habeas review of his claims that counsel
was ineffective for failing to investigate Canary Denson and failing to file a motion
to suppress.
B.

Woodard Is Not Entitled To Habeas Relief On His SubClaims Involving Terrell Powell and Derrick Holmes
i.

Terrell Powell

Woodard alleges that Marvin Cannon “told him that Terrell Powell was one
of the perpetrators involved in the alleged crime” and that Powell was being held in
the Gadsden County Jail. (Doc. 2, p. 14). Woodard claims he gave trial counsel this
information and asked him to interview Powell, but counsel failed to investigate the
matter. (Id.., pp. 14-15). Woodard contends that “[t]he failure to investigate matters
and learn the facts effectively deprived the Petitioner of the right to place evidence
before the jury that could have made the difference in the verdict of guilty to not

7 The undersigned cites Baker only as persuasive authority and recognizes that
unpublished opinions are not considered binding precedent. See 11th Cir. R. 36-2.
Page 21 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 22 of 48

guilty.” {Id., p.p. 15-16). The State asserts that Woodard is not entitled to federal
habeas relief because he fails to meet § 2254(d)’s demanding standard. (Doc. 17, pp.
26-30).
Woodard presented this claim to the state courts as Ground 1-B of his second
amended Rule 3.850 motion. The state circuit court held an evidentiary hearing and
appointed counsel to assist Woodard. At the hearing, Woodard did not call Powell
to testify. Woodard offered only his own speculative testimony:
Q [Postconviction counsel]: And, to your knowledge, Mr. Kenny failed
or did not interview Terrell Powell?
A [Woodard]: He failed to even attempt to do it, sir.
Q: Okay. And it’s your belief that Mr. Powell would have testified
how?
A: In my belief I believed that he would have testified that I had
nothing to do with it.
Q: And do you believe that he would have been able to identify who
the perpetrators of the robbery were?
A: Yes, sir.
Q: Now, I got lost a little bit. What’s the interplay there with Marvin
Cannon? Explain that for us.
A: The interplay? I’m lost.

Page 22 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 23 of 48

Q: Okay. The - in that allegation, you indicate that Mr. Kenny needed
to interview Marvin Cannon or - and Terrell Powell. I’m not entirely
clear how Marvin Cannon is or was involved. Can you explain that?
A: Marvin Cannon is my codefendant. I mean, I don’t understand.
Q: Okay. And that may clear it up. In other words, Mr. Powell would
have been able to - he would have implicated Marvin Cannon and other
people other than yourself; is that what you’re saying?
A: Possibly, yes sir.
(Ex. E2, pp. 207-08).
Woodard’s trial counsel, Attorney Kenny, also testified at the hearing. When
asked about Terrell Powell, counsel initially did not recall him. After his recollection
was refreshed, counsel testified that: (1) Woodard asked him to talk to Powell; (2)
counsel instructed his associate, Attorney Peskin, to talk to Powell; (3) Peskin
interviewed Powell at the Gadsden County Jail; and (4) Powell denied any
knowledge of Woodard and also denied being present during the commission of the
offenses. (Ex. E2, pp. 233-34, 245-46). Attorney Kenny explained:
Q [Woodard’s Postconviction Counsel]: Mr. Kenny . . . what
investigation did you or your office undertake as it relates to Terrell
Powell, the gentleman in the Gadsden County Jail that was mentioned
as a witness?
A [Attorney Kenny]: Yes, sir. And by reviewing some of the
information, including the complaint filed by Mr. Woodard, I did not
individually speak with Mr. Powell and I think I told Mr. Woodard that
as well. However, there was court over in Gadsden, which [sic]
Page 23 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 24 of 48

handling a lot of conflict cases we had over there, and Ms. Peskin was
covering something for me. She went to the Gadsden County Jail. My
recollection was she did not prepare me anything on it, because Mr.
Powell denied knowledge of Mr. Woodard, knowledge of the
individuals or being around there that night. It perplexed me as to why
he was listed as a State witness. It may have been out of an abundance
of caution they put him, but as my recollection was they never used him
either, but he denied anything or any knowledge.
(Ex. E2, p. 247).
At the close of the hearing, the state court ruled that Woodard failed to
establish “that there was any lack of investigation” or that he was prejudiced. (Ex.
E2, p. 267). Woodard argued the issue on appeal. The First DCA summarily
affirmed. (Ex. E6).
The First DCA’s summary affirmance is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d). See Richter, 562 U.S. at 99, 100
(“This Court now holds and reconfirms that § 2254(d) does not require a state court
to give reasons before its decision can be deemed to have been ‘adjudicated on the
merits.’”). In light of the testimony at the state postconviction evidentiary hearing
and the state court’s implicit finding that Attorney Kenny’s testimony was credible,
it was neither contrary to, nor an unreasonable application of Strickland to conclude
that Woodard failed to establish deficient performance and prejudice. Trial counsel

Page 24 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 25 of 48

investigated Terrell Powell, but Powell provided no information helpful to the
defense. Woodard is not entitled to federal habeas relief on this sub-claim.
u.

Derrick Holmes

With regard to Holmes, Woodard’s petition faults counsel for “failing to
conduct an adequate pre-trial investigation, interview and depose” Derrick Holmes.
(Doc. 1, p. 4). Woodard makes no effort, however, to enlighten this court why this
omission deprived him of his right to effective assistance of counsel. Neither
Woodard’s petition, his supporting memorandum, nor his reply provides any
allegation supporting his claim concerning Derrick Holmes. {See Doc. 1; Doc. 2, pp.
13-16; Doc. 19).
Although pro se pleadings are held to a less stringent standard than pleadings
drafted by attorneys, the burden of properly identifying a claim and alleging
supporting facts rests with the petitioner. See, e.g., Chavez v. Sec’y Fla. Dep’t of
Corr., 647 F.3d 1057, 1061 (11th Cir. 2011) (holding that a habeas petitioner’s
allegations “must be factual and specific, not conclusory,” and that “[c]onclusory
allegations are simply not enough”). This Court is not required to cull the record in
search of facts supporting Woodard’s claim.
As the court explained in Chavez, all of the principles of law governing
pleading requirements, the burden of proof and the granting of evidentiary hearings
Page 25 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 26 of 48

in federal habeas cases “would mean nothing if district courts were required to mine
the record, prospecting for facts that the habeas petitioner overlooked and could
have, but did not, bring to the surface in his petition.” Chavez, 647 F.3d at 1061. The
court went on: “Making district courts dig through volumes of documents and
transcripts would shift the burden of sifting from petitioners to the courts. With a
typically heavy caseload and always limited resources, a district court cannot be
expected to do a petitioner’s work for him.” Id. at 1061. The court in Chavez
concluded: “[District court judges are not required to ferret out delectable facts
buried in a massive record.” Id.
Where, as here, “a habeas petition does not allege enough specific facts that,
if they were true, would warrant relief, the petitioner is not entitled to an evidentiary
hearing” or federal habeas relief. Chavez, 647 F.3d at 1060; Allen v. Sec ’y Fla. Dep ’t
of Corr., 611 F.3d 740, 763 (11th Cir. 2010) (“Having alleged no specific facts that,
if true, would entitle him to federal habeas relief, Allen is not entitled to an
evidentiary hearing.”). Woodard’s conclusory assertion that counsel was ineffective
for failing to investigate Derrick Holmes does not warrant federal habeas relief.
Even giving Woodard the benefit of gleaning his supporting facts from the
record of his second amended Rule 3.850 motion, his claim still fails. Woodard’s

Page 26 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 27 of 48

postconviction motion alleged that Holmes was housed with him at the Leon County
Jail. During this confinement:
Ho[l]mes wrote an affidavit that stated that the defendant had
written him a letter concerning details of the alleged offense.
Defendant informed counsel that he did not give Ho[l]mes the
letter, but he did wr[i]te the letter. At that time, defendant didn’t know
exactly how Ho[l]mes actually obtained the letter, because defendant
had placed the letter inside a legal envelope filled with legal documents.
Defendant later learned that Holmes obtained the letter by
entering the defendant’s cell while defendant was going to court.
Holmes violated Leon County Jail rules and regulations by entering a
cell he’s not assigned to. Counsel was informed of these details.
(Ex. El, pp. 85-86). Woodard faults trial counsel for failing to depose Holmes.
Woodard claims that “had counsel deposed Holmes, counsel could have obtained a
confession from Holmes that he unlawfully seized the evidence (letters), in that, it’s
clear that the unlawfully seized evidence would not have been permitted to enter into
evidence.” {Id., p. 86). Holmes did not testify at Woodard’s trial, but the two letters
Woodard wrote Holmes were admitted into evidence. (Doc. 17, Ex. B5B, pp. 301310). 8

8

Woodard’s letters, in Woodard’s own words, gave Holmes a “story” to “memorize”
to corroborate Woodard’s defense. (Ex. B5B, pp. 307-10).
Page 27 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 28 of 48

At the state postconviction evidentiary hearing, Woodard did not call Derrick
Holmes to testify. Woodard was asked why he believed Attorney Kenny was
ineffective with regard to the Holmes letters:
Q [Woodard’s Post Conviction Counsel]: And if you can explain for
the Court what do you believe Mr. Kenny was ineffective in doing as it
relates to that letter?
A [Woodard]: He - he failed to get on the record - he failed to depose
Holmes, to get on the record how Holmes possessed, came in
possession of the letters, because I told Mr. Kenny that I did write - that
I did write the note. It was my handwriting. I couldn’t deny that.
Q: Meaning, Mr. Kenny didn’t investigate whether Mr. Holmes had
been directed by somebody in law enforcement or from the state
attorney’s office to obtain it?
A: Yes, sir.
(Ex. E2, p. 210). Woodard admitted on cross-examination that he had no information
indicating that the letters were obtained through State misconduct. (Ex. E2, p. 221).
Woodard’s trial counsel, Attorney Kenny, testified at the evidentiary hearing
that the State provided the letters to him three months prior to trial, and that he
forwarded them to Woodard. Kenny testified:
He [Woodard] wrote back to me at the end of January, early
February, saying these letters are illegally obtained. He didn’t say how.
I was reviewing his correspondence last night, but his letter to me was
that they were stolen and then he didn’t indicate if they were taken to
the state attorney’s office or how the state attorney’s office got a hold

Page 28 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 29 of 48

of them, just that they were stolen. That they were, therefore, illegally
obtained evidence and I should move immediately to exclude them.
Q [Assistant State Attorney Ray]: Okay. What was so troublesome as
an attorney in your evaluation of those letters that were written by the
defendant?
A [Attorney Kenny]: Well, first, it I mean, in speaking with Mr.
Woodard, who never denied the letters were his, they were handwritten
and they were basically an outline to individuals he is talking to saying,
Hey, I’ve looked at it, based upon what they’re saying, this timeline is
wrong. We need to say it’s more like this. And it just gives a straight
implication that he was trying to either falsify testimony and/or make
witnesses change their story to fit his alibi and/or defense.
(Ex. E2, pp. 226-27). Attorney Kenny directed his associate, Attorney Peskin, to
determine whether there was a legal basis to exclude or suppress letters stolen by a
third party. Peskin concluded, and Kenny concurred, that the defense “did not really
have grounds to move for anything” concerning the letters. (Ex. E2, p. 228).
Attorney Kenny was asked:
Q [Assistant State Attorney Ray]: Do you have any good faith
basis to believe with any of the information that you had, either through
the letters or any discovery or any discussions or correspondence with
the defendant, that the State of Florida orchestrated [this] somehow[,]
knowing that the defendant had written and sent these letters and some
agent of the State stolen them and presented them to the State of
Florida?
A [Attorney Kenny]: I didn’t have any reason to believe that.
(Ex. E2, pp. 229-30).

Page 29 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 30 of 48

At the close of the postconviction evidentiary hearing, the state court ruled:
“As to Derrick Holmes, I don’t find it [sic] any ineffective assistance of counsel was
proven nor that any prejudice has been shown. . . . There’s been nothing presented
here today suggesting that Mr. Holmes has any testimony to present. There’s a total
absence of any showing of prejudice. I also find there was a lack of ineffective
assistance of counsel.” (Ex. E2, p. 267). Woodard argued the issue on appeal. The
First DCA summarily affirmed. (Ex. E6).
The First DCA’s summary affirmance is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d). See Richter, 562 U.S. at 99, 100.
Based on the record before the state court, fairminded jurists can concur in the First
DCA’s conclusion that Woodard failed to establish either prong of Strickland’s twopart standard, much less both of them.
Woodard admitted that he authored the letters and that they were intended for
Holmes. Woodard’s suggestion that Holmes obtained, without his consent, the
letters Woodard wrote to him, is wholly incredible. But even assuming Holmes
“stole” the letters without Woodard’s consent, Woodard failed to establish a
reasonable probability that deposing Holmes would have produced a meritorious
basis to suppress the letters. Woodard’s speculation that the State could have been
involved in directing Holmes to steal them, is not enough. Woodard offered the state
Page 30 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 31 of 48

court no testimony or evidence remotely suggesting (much less raising a reasonable
probability) that a deposition of Holmes would had revealed prosecutorial or law
enforcement misconduct. Woodard is not entitled to federal habeas relief on this sub­
claim.
Ground Two

“Denial of Effective Assistance of Counsel, in Violation
of Sixth and Fourteenth Amendment of the United
States and Florida Constitution, by Trial Counsel’s
Failure to Raise a Contemporaneous Objection to
Prosecutor Eliciting Testimony of Shontecia Murray to
Introduce Collateral Act Evidence, and for [sicl to
Raise a Contemporaneous Objection.” (Doc. 1, p. 4)

Woodard claims that trial counsel was ineffective for failing to object, during
Woodard’s first trial, to the prosecutor eliciting testimony from State’s witness
Shontecia Murray that she had a sexual relationship with Woodard.9 Woodard
contends that counsel’s failure to object prejudiced him in his second trial, because
when counsel moved in limine to prohibit the State from engaging in that line of
questioning, the trial court denied the motion because counsel failed to object during
the first trial. Woodard explains:
Shontecia Murray testified during Petitioner’s first trial. On
[cjross examination, the Prosecutor attacked Ms. Murray’s character by
inquiring about her age and sex life. Specifically, the prosecutor made

9 Apparently, Ms. Murray was a minor at the time.
Page 31 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 32 of 48

the witness’ sexual relationship with Petitioner the feature of the trial
without an objection from defense counsel.
Eventually, the trial resulted in a hung jury and a new trial was
scheduled. During the retrial, counsel decided to file motion in limine.
One of the things counsel argued was to prevent the Prosecutor from
making the witness’ sexual relationship with the Petitioner a feature of
the trial under the pretext of showing a motive to lie.
In light of the fact that counsel failed to object to the line of crossexamination during the first trial, the Judge allowed the Prosecutor to
continue to attack Ms. Murray’s character once again, based on defense
counsel’s failure to object to the cross-examination during the first trial.
(Doc. 2, pp. 16-17). The State asserts that Woodard is not entitled to habeas relief
because he fails to meet § 2254(d)’s demanding standard. (Doc. 17, pp. 33-37).
Woodard presented this claim to the state courts as Ground 2 of his Rule 3.850
motion. The state circuit court denied relief for these reasons:
As to the Murray relationship, the - Mr. Kenny did file a motion
in limine to exclude the testimony. The Court denied. In his motion,
Mr. Woodward [sic] claims that the Court said he denied it, because it
came out in the first trial. That was why I wanted to make sure I looked
at the transcript. That’s simply not true. That’s not - the judge doesn’t
say anything to that effect. Apparently, Mr. Kenny was surprised by it
in the first trial and in preparation for the second trial, he filed a motion
in limine.
Frankly, I’m not crystal clear on the preservation argument. I
accept Mr. Morris’ [Woodard’s postconviction counsel] representation
that the case says that it would not be proper preservation. Frankly, I
think there’s some cases to the contrary. I think it’s kind of a murky
area of the law, frankly, as to what has to be done to preserve.

Page 32 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 33 of 48

But I think beyond that, Mr. Kenny says he made a strategic
decision not to highlight in front of the jury. I don’t think that’s an
unreasonable decision. But even more clearly, I don’t see where there
was any basis for the Court to have ruled otherwise. Certainly the
relationship between the defendant and one of his alibi witnesses is fair
game.
(Ex. E2, pp. 267-68). The First DCA summarily affirmed without explanation. (Ex.
E6).
The First DCA’s summary affirmance is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d). See Richter, 562 U.S. at 99, 100.
This court presumes that the First DCA’s summary decision adopted the lower
court’s reasoning. See Wilson v. Sellers, — U.S. —, 138 S. Ct. 1188, 1192 (2018).
The trial record confirms the state court’s findings. Prior to Woodard’s second
trial, Attorney Kenny moved to prohibit the State from inquiring into Ms. Murray’s
sexual relationship with Woodard. The trial court denied the motion because it was
without merit, not because counsel failed to object during the first trial:
MR. KENNY: The other motion I have is there was a statement
made last time from Shantecia [sic] Murray, who admitted having not
only a relationship but a sexual relationship with my client, Maurice
Woodard. Based upon her age at the time and my client’s age, I believe
that any probative value from the evidence that Ms. Ray [the
prosecutor] is attempting to get in there is outweighed by the prejudicial
effect that the jury might interpret from their ages and, therefore, I
would ask that any questions or line of questions into their sexual
relationship be prohibited. Certainly, questions into their relationship
can be permitted.
Page 33 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 34 of 48

THE COURT: Does the State object to that?
MS. RAY [Prosecutor]: I do, Your Honor. The witness in
question is providing an alibi for the defendant in this case and any
subject that goes to bias is completely admissible. And the fact that she
is having an intimate relationship with the defendant is relevant to her
credibility and bias.
THE COURT: I agree. That motion is denied.
(Ex. E3, pp. 4-5).
Because Woodard’s claim is conclusively refuted by the record, the state
court’s denial of relief was neither contrary to, nor an unreasonable application of,
the Strickland standard. Woodard is not entitled to habeas relief on Ground Two.
Ground Three

“Denial of Effective Assistance of Counsel in Violation
of His Sixth and Fourteenth Amendment of the United
States and Florida Constitution, by Trial Counsel’s
Failure to Permit the Defendant to Testify on His Own
Behalf.” (Doc. 1. p. 51

Woodard claims that when he and counsel discussed whether he should testify
at the second trial, “counsel made the decision not to allow Petitioner to testify” for
the reason that “he wanted to trick the Prosecutor.” (Doc. 2, p. 18). The State asserts
that this claim is procedurally defaulted because, although Woodard presented the
claim to the state circuit court as Ground 3 of his second amended Rule 3.850
motion, he abandoned it in his postconviction appeal by failing to address it in his

Page 34 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 35 of 48

initial brief. (Doc. 17, pp. 12-13, 38). The State alternatively argues that the claim is
without merit. (Doc. 17, pp. 38-44).
Similar to the two procedurally defaulted sub-claims discussed in Ground One
above, the record establishes that Woodard’s postconviction appellate brief omitted
his present claim concerning counsel’s advice not to testify. (Ex. E4). Because
Woodard abandoned this claim in state court, and any further attempt to exhaust the
claim would be futile, this ineffective assistance claim is procedurally defaulted on
habeas review. See Discussion, supra, pp. 16-20. Woodard makes none of the
requisite showings to excuse his default. Woodard’s procedural default bars federal
habeas review of Ground Three.
Ground Four

“Denial of Effective Assistance of Counsel in Violation
of Sixth and Fourteenth Amendment of the United
States and Florida Constitution, by Trial Counsel’s
Failure to Object to the Introduction of Evidence.”
(Doc. 1, p. 5)

Woodard claims that trial counsel was ineffective for failing to object to the
admission of the letters that, he contends, the State obtained “illegally.” (Doc. 2, pp.
19-21). The State asserts that this claim is procedurally defaulted because, although
Woodard presented the claim to the state circuit court as Ground 4 of his second
amended Rule 3.850 motion, he abandoned the claim in his postconviction appeal

Page 35 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 36 of 48

by failing to address it in his initial brief. (Doc. 17, pp. 12-13, 38). The State
alternatively argues that the claim is without merit. (Doc. 17, pp. 44-46).
The record establishes that Woodard’s postconviction appellate brief omitted
this claim (Ground 4) concerning counsel’s failure to object to admission of the
letters. (Ex. E4). Because Woodard abandoned this claim in state court, and any
further attempt to exhaust the claim would be futile, this ineffective assistance claim
is procedurally defaulted on habeas review. See Discussion, supra, pp. 16-20.
Woodard makes none of the requisite showings to excuse his default. Woodard’s
procedural default bars federal habeas review of Ground Four.
Ground Five

“Denial of Effective Assistance of Counsel in Violation
of His Sixth and Fourteenth Amendment of the United
States and Florida Constitution, by Trial Counsel’s
Failure to Object to Co-Defendant’s Counsel’s
Inappropriate Final Argument, Failure to Move for a
Mistrial and for Failure to Move for Severance.” (Doc.
1. p. 61

Woodard claims that his trial counsel was ineffective for failing to object,
move for a mistrial and move for severance when co-defendant Denson’s counsel
argued in closing that, although the State presented evidence that Woodard was
guilty, it presented very little evidence of Denson’s guilt. (Doc. 1, p. 6; Doc. 2, p.
19). The State asserts that Woodard’s claim is partially procedurally defaulted. The
State explains that, although Woodard raised all three of trial counsel’s omissions
Page 36 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 37 of 48

(failure to object, failure to move for a mistrial, and failure to move for severance)
in his second amended Rule 3.850 motion, he abandoned two issues (failure to object
and failure to move for a mistrial) by omitting them from his postconviction appeal.
Accordingly, these aspects of Woodard’s claim are procedurally defaulted. (Doc. 17,
pp. 13-14, 46). The State argues in the alternative that even assuming to Woodard’s
benefit that he properly exhausted all aspects of this claim, he is not entitled to
habeas relief because he fails to meet § 2254(d)’s demanding standard. (Doc. 17, pp.
46-52).

A.

Woodard Procedurally Defaulted His Sub-Claims Involving
Counsel’s Failure to Object and Move for a Mistrial

The record establishes that Woodard’s second amended Rule 3.850 motion
raised two distinct sub-claims under Ground Five. Woodard’s Ground 5-A argued
that counsel was ineffective for failing to object and move for a mistrial based on
co-defendant counsel’s closing argument. (Ex. El, pp. 107-111). Woodard’s Ground
5-B argued that counsel was ineffective for failing to move for severance based on
the closing argument by his co-defendant’s counsel. (Ex. El, pp. 111-114).
After the state circuit court denied relief, Woodard appealed. Woodard’s
appellate brief, however, argued only Ground 5-B concerning counsel’s failure to
move for severance. (Doc. 17, Ex. E4, pp. i-iii (Table of Contents), pp. 8-11

Page 37 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 38 of 48

(Statement of the Facts), pp. 11-13 (Points of Argument on Appeal and Summary of
Argument), and pp. 27-36 (Argument)). Woodard omitted from his brief the sub­
claim involving counsel’s failure to object and move for a mistrial (Ground 5-A).
Woodard, therefore, abandoned Ground 5-A, and this portion of his ineffective
assistance claim is procedurally defaulted. See Discussion, supra, pp. 16-20.
Woodard makes none of the requisite showings to excuse his procedural
default. Woodard’s procedural default bars habeas review of his claim that counsel
was ineffective for failing to object and move for a mistrial based on Denson’s
counsel’s statements.
B.

Woodard Is Not Entitled To Habeas Relief On His SubClaim Concerning Counsel’s Failure to Move for Severance
Due to Co-Defendant Counsel’s Closing Argument

Woodard faults trial counsel for failing to move for severance based on co­
defendant counsel’s closing argument, but neither his habeas petition, his supporting
memorandum, nor his reply identifies the allegedly prejudicial statements Denson’s
counsel made. (See Docs. 1, 2, 19). Woodard’s conclusory assertion that counsel
made “highly prejudicial comments during final argument” which justified
requesting severance, is not factual or specific, and cannot arguably justify federal
habeas relief. (Doc. 1, p. 6 in ECF; Doc. 2, p. 19). This Court is not required to cull
the record in search of supporting facts. Chavez, 647 F.3d at 1061. Woodard’s
Page 38 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 39 of 48

conclusory assertion that counsel was ineffective for failing to move for severance
does not warrant federal habeas relief.
Even giving Woodard the benefit of gleaning his supporting facts from the
record of his Rule 3.850 proceeding, he still is not entitled to habeas relief.
Woodard’s claim in Ground 5-B of his state postconviction motion identified the
following statements by co-defendant Denson’s counsel during closing argument:
(1) “Well, Ms. Ray [the prosecutor] in her closing argument spent 25
minutes out of 26 minutes . . . talking about. . . Maurice Woodard, not
Alfred Denson”, (Ex. B5C, p. 471 (trial transcript));
(2) Letters introduced into evidence “refer[ed] to Mr. Woodard, not Mr.
Denson.” (Id., p. 471);
(3) “There’s two people who those calls [made from the victim’s cell
phone] can relate to, but only one who deals with the young lady in the
last phone call. . . . [C]an you reasonably believe that Alfred Denson
made some of these calls? There’s no proof that he made any of them.
There’s only proof that one person made one of them. That is not Alfred
Denson.” (Id., p. 472); and
(4) “The evidence goes one way, not both ways. Just because another
person might be there.” (Id., p. 473).
(See Ex. El, pp. 111-114 (second amended Rule 3.850 motion).
The state circuit court denied relief for these reasons:
Failure to object to the codefendant’s closing argument, I don’t
know of any basis to object, even in hindsight. The -1 guess the only
potential issue would be to request a severance. Mr. Kenny [trial
counsel] says he’s not aware of any legal basis to ask for a severance.
Page 39 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 40 of 48

There has been no real showing here that there was a basis for a
severance. Therefore, it’s not ineffective.
In support of that, and I just happened to run across this in my
reading now, actually the codefendant asked for a severance during the
course of the trial. That’s in Volume II of Page 168 earlier during the
trial. You know, severance as to one -1 mean, I know maybe we didn’t
highlight it, because it’s the codefendant asking, but if a severance was
appropriate, severance would have the same effect no matter who’s
asking for it and Judge Cooper denied the severance requested by the
codefendant. There has been no showing of prejudice. I don’t find any
legal basis to have granted a severance. Apparently, Judge Cooper
didn’t see a legal basis to grant a severance, so it’s been neither
ineffective nor has there been prejudice shown.
(Ex. E2, pp. 269-70).
Woodard appealed. Woodard’s counseled initial brief argued that the lower
court erred in finding there was no legal basis for severance, because the Florida
Rules of Criminal Procedure and the Florida Supreme Court’s decisions applying
those rules provided a meritorious basis for severance. (Ex. E4, pp. 27-31).
Woodard’s argument relied exclusively on Florida Rules of Criminal Procedure
3.152(b)(1)(B) and 3.153, and the Florida Supreme Court’s decisions in Crum v.
State, 398 So. 2d 810 (Fla. 1981), McCray v. State, 416 So. 2d 804 (Fla. 1982), and
Bryant v. State, 565 So. 2d 1298 (Fla. 1990). The First DCA summarily affirmed.
(Ex. E6).

Page 40 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 41 of 48

The First DCA’s summary affirmance is an “adjudication on the merits”
entitled to deference under 28 U.S.C. § 2254(d). See Richter, 562 U.S. at 99, 100.
Woodard’s claim that the state court unreasonably applied Strickland obviously
depends upon this court determining whether trial counsel’s performance was
deficient. To so hold, this court first would have to conclude that the state court
misinterpreted state law. But this court must defer to the state’s construction of its
own law. See Alvord v. Wainwright, 725 F.2d 1282, 1291 (11th Cir. 1984)
(explaining that “[o]n the one hand, the issue of ineffective assistance - even when
based on the failure of counsel to raise a state law claim - is one of constitutional
dimension,” but, “[o]n the other hand, the validity of the claim [counsel] failed to
assert is clearly a question of state law, and we must defer to the state’s construction
of its own law.”) (citations omitted).10
In Herring v. Sec’y, Dep’t of Corr., 397 F.3d 1338 (11th Cir. 2005), the
Eleventh Circuit addressed a similar circumstance. Petitioner Herring argued that his
trial counsel was ineffective for failing to make an objection, based on state law, to
the introduction of evidence at the penalty phase of his trial. The state court

10 Alvord was superseded by statute on other grounds as noted in Hargrove v.
Solomon, 227 F. App’x 806 (11th Cir. 2007).
Page 41 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 42 of 48

concluded that Herring’s proposed objection would have been overruled and,
therefore, counsel was not deficient. Id. at 1354-55. The Eleventh Circuit held: “The
Florida Supreme Court already has told us how the issues would have been resolved
under Florida state law had [Herring’s counsel] done what Herring argues he should
have done.... It is a ‘fundamental principle that state courts are the final arbiters of
state law, and federal habeas courts should not second-guess them on such matters.’”
Id. (quoting Agan v. Vaughn, 119 F.3d 1538, 1549 (11th Cir. 1997)).
Here, as in Alvord and Herring, the state court already has answered the
question of whether co-defendant counsel’s statements during closing argument
provided a basis for severance under Florida Rules 3.152(b)(1)(B) and 3.153: they
did not. Because this court will not “second guess” the state court’s state-law-based
conclusion, Woodard cannot demonstrate counsel was deficient for failing to make
the motion. Nor can Woodard demonstrate prejudice. See Bradshaw v. Richey, 546
U.S. 74, 76 (2005) (“We have repeatedly held that a state court’s interpretation of
state law . . . binds a federal court sitting in habeas corpus.” (citing cases)); Herring
at 1355; Callahan v. Campbell, All F.3d 897, 932 (11th Cir. 2005) (holding that
defense counsel cannot be deemed ineffective for failing to make a state-law-based
objection when the state court has already concluded that the objection would have
been overruled under state law; to conclude otherwise would require the federal
Page 42 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 43 of 48

habeas court to make a determination that the state court misinterpreted state law,
which would violate the fundamental principle that federal habeas courts should not
second-guess state courts on matters of state law).
Even looking beyond the state-law aspect of Woodard’s claim, Strickland's,
prejudice prong requires Woodard to show not just that his motion for severance was
meritorious, but also that there is a reasonable probability the result ofhis trial would
have been different had severance been granted. See Kimmelman v. Morrison, All
U.S. 365, 375 (1986). Woodard fails to make that showing. The state trial court
instructed the jury: (1) that it must consider the charges against each defendant
separately, and the evidence applicable to that defendant separately; (2) that its
verdict must be based on the evidence presented during the trial; and (3) that the
attorneys’ statements during closing arguments are not evidence. (Ex. B5C, pp. 411,
474). Woodard has not shown that there is a reasonable probability the verdict would
have been different had he been tried separately, that is, upon the same evidence but
absent co-defendant counsel’s closing remarks.
The state court’s rejection of Woodard’s claim was neither contrary to, nor an
unreasonable application of, the Strickland standard. Woodard, therefore, is not
entitled to federal habeas relief on Ground Five.

Page 43 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 44 of 48

Ground Six

“Whether the Trial Court Erred in Denying PostConviction Relief After the State Witness Who
Identified Defendant as a Masked Cariacker in 2006
Recanted., Stating that He Lied When Identifying
Defendant, and Where No Competent, Substantial
Evidence Undermines the Recanting Witness’s
Credibility; and Whether Defendant Presents a Claim
of ‘Actual Innocence’ Based upon ‘Newly Discovered
Evidence’ in the Form of a Sworn Affidavit by CoDefendant Marvin Cannon.” (Doc. 1, p. 61

Woodard alleges that in 2013, Marvin Cannon recanted his trial testimony
identifying Woodard as the perpetrator of the crimes. Woodard contends that
Cannon’s recantation is newly discovered evidence of his innocence. (Doc. 2, pp. 612, 21-22). Woodard presented his “newly discovered evidence” claim to the state
court in his second Rule 3.850 proceeding filed on October 24, 2013. (Ex. FI, pp. 119). The state postconviction court denied relief after an evidentiary hearing, and the
First DCA summarily affirmed. Woodard argues that the state court erred in denying
postconviction relief, because the lower court unreasonably determined that
Cannon’s postconviction evidentiary hearing testimony was not credible, and
because the state court’s decision “was based on a materially incomplete analysis.”
(Doc. 2, pp. 22-24).
The State asserts that Woodard’s actual innocence/newly discovered evidence
claim is not cognizable on federal habeas review and, even if it were, is procedurally

Page 44 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 45 of 48

defaulted because Woodard did not present the issue as one of federal constitutional
dimension to the state court. (Doc. 17, pp. 14-17). The State asserts in the alternative
that Woodard fails to meet 28 U.S.C. § 2254(d)’s demanding standard. (Doc. 17,
pp. 52-54).
The reasonableness of the state court’s decision (including its credibility
determinations) matters only if Woodard’s substantive claim is cognizable on federal
habeas review. It is not. Woodard’s substantive claim is that Cannon’s recantation
shows he is innocent. A freestanding claim of actual innocence is not cognizable on
federal habeas review. See Herrera v. Collins, 506 U.S. 390, 400 (1993) (“Claims
of actual innocence based on newly discovered evidence have never been held to
state a ground for federal habeas relief absent an independent constitutional violation
occurring in the underlying state criminal proceeding.”); Townsend v. Sain, 372 U.S.
293, 317 (1963) (“[T]he existence merely of newly discovered evidence relevant to
the guilt of a state prisoner is not a ground for relief on federal habeas corpus.”),
overruled on other grounds, 504 U.S. 1 (1992); Cunningham v. Dist. Attorney’s
Office for Escambia Cty., 592 F.3d 1237, 1272 (11th Cir. 2010) (“”[T]his Court’s
own precedent does not allow habeas relief on a freestanding innocence claim in
non-capital cases[.]”); Swindle v. Davis, 846 F.2d 706, 707 (11th Cir. 1988) (“Newly
discovered evidence which goes only to the guilt or innocence of the petitioner is
Page 45 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 46 of 48

not sufficient to require habeas relief.”). This rule “is grounded in the principle that
federal habeas courts sit to ensure that individuals are not imprisoned in violation of
the Constitution—not to correct errors of fact.” Herrera, 506 U.S. at 400-01.
The fact that Cannon recanted years after Woodard’s trial does not bear on the
constitutionality of Woodard’s trial or incarceration. Ground Six provides no basis
for federal habeas relief, and should be denied.
IV.

A Certificate of Appealability is Not Warranted
Rule 11(a) of the Rules Governing Section 2254 Cases in the United States

District Courts provides: “[t]he district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant.” If a certificate is
issued, “the court must state the specific issue or issues that satisfy the showing
required by 28 U.S.C. § 2253(c)(2).” 28 U.S.C. § 2254 Rule 11(a). A timely notice
of appeal must still be filed, even if the court issues a certificate of appealability.
See 28 U.S.C. § 2254 Rule 11(b).
“[Section] 2253(c) permits the issuance of a COA only where a petitioner has
made a ‘substantial showing of the denial of a constitutional right.’” Miller-El v.
Cockrell, 537 U.S. at 336 (quoting 28 U.S.C. § 2253(c)). “At the COA stage, the
only question is whether the applicant has shown that ‘jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that jurists
Page 46 of 48

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 47 of 48

could conclude the issues presented are adequate to deserve encouragement to
proceed further.’” Buck v. Davis, 580 U.S.

-, 137 S. Ct. 759,11A (2017) (quoting

Miller-El, 537 U.S. at 327). “When the district court denies a habeas petition on
procedural grounds without reaching the prisoner’s underlying constitutional claim,
a COA should issue when the prisoner shows, at least, that jurists of reason would
find it debatable whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473,
484 (2000) (emphasis added). Here, Petitioner has not made the requisite
demonstration. Accordingly, the court should deny a certificate of appealability in
its final order.
The second sentence of Rule 11(a) provides: “Before entering the final order,
the court may direct the parties to submit arguments on whether a certificate should
issue.” 28 U.S.C. § 2254 Rule 11(a). If there is an objection to this recommendation
by either party, that party may bring such argument to the attention of the district
judge in the objections permitted to this report and recommendation.
V.

Conclusion
For

the

reasons

set

forth

above,

RECOMMENDS that:
Page 47 of 48

the

undersigned

respectfully

Case 4:17-cv-00258-WS-MJF Document 23 Filed 07/22/19 Page 48 of 48

1. The petition for writ of habeas corpus (Doc. 1), challenging the judgment
of conviction and sentence in State of Florida v. Maurice Woodard, Leon
County Circuit Court Case No. 2004-CF-3842, be DENIED.
2. The District Court DENY a certificate of appealability.
3. The clerk of court close this case.
At Panama City Beach, Florida, this 22d day of July, 2019.
/ s/ “THleAael '7>uut&
Michael J. Frank
United States Magistrate Judge

NOTICE TO THE PARTIES
Objections to these proposed findings and recommendations must
be filed within fourteen (14) days after being served a copy thereof.
Any different deadline that may appear on the electronic docket is
for the court’s internal use only, and does not control. A copy of
objections shall be served upon all other parties. If a party fails to
object to the magistrate judge's findings or recommendations as to
any particular claim or issue contained in a report and
recommendation, that party waives the right to challenge on appeal
the district court's order based on the unobjected-to factual and
legal conclusions. See 11th Cir. Rule 3-1; 28 U.S.C. § 636.

Page 48 of 48

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT, STATE OF FLORIDA
MAURICE WOODARD,
Appellant,
v.

NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
CASE NO. 1D13-260

STATE OF FLORIDA,
Appellee.

•pinion filed JulyJZOJZQ.
An appeal from the Circuit Court for Leon County.
James C. Hankinson, Judge.
Robert A. Morris and Elliott A. Smith of The Law Offices of Robert A. Morris,
LLC, Tallahassee, for Appellant.
Pamela Jo Bondi, Attorney General, and Trisha Meggs Pate, Bureau Chief,
Tallahassee, for Appellee.

PER CURIAM.
AFFIRMED.
LEWIS, C.J., BENTON and MARSTILLER, JJ., CONCUR.

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT, STATE OF FLORIDA
MAURICE WOODARD,
Appellant,
v.

NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED
CASE NO. 1D15-4229

STATE OF FLORIDA,
Appellee.

Opinion filed March 23, 2017.
An appeal from the Circuit Court for Leon County.
Terry Lewis, Judge.
Terry P. Roberts, Tallahassee, for Appellant.
Pamela Jo Bondi, Attorney General, and Michael McDermott, Assistant Attorney
General, Tallahassee, for Appellee.

PER CURIAM.
AFFIRMED.
WOLF, RAY, and MAKAR, JJ., CONCUR.

Case: 19-14561

Date Filed: 12/20/2019

Page: 1 of 3

CASE NU» IBEli 19-14561
m THE UNITED STATES COURT OF APPEAL
FOR THE ELEVENTH CIRCUIT
MAURICE WOODARD,
Appellant,
v.
SECRETARY, FLA. DEPT.
OF CORR., ET. AL..,
Appellee.

APPELLEE’S CERTIFICAl E ofr INTERESTED PERSONS
Pursuant to Federal Rule of Appellate Procedure 26.1 and Eleventh Circuit Rules
26.1-1 and 26.1-2, the Appellee hereby certifies that the following persons have an
interest in the outcome of this case:
Campbell, Hon, Jack - State Attorney, Florida Second Judicial Circuit
Cannon, Marvin - Appellant’s co-defendant
Hagins, Ephram - Victim
Hankinson, Hon. James C. - Circuit Court Judge, Second Judicial Circuit of Florida
Inch, Hon. Mark S. - Secretary, Florida Department of Corrections
Jordan, Bryan - Senior Assistant Attorney General, State of Florida
Kenny, John - Appellant’s trial counsel

Case: 19-14561

Date Fred: 12/20/2019

Page: 2 of 3

McDermott, Michael - Senior Assistant Attorney General, State of Florida
Moody, Hon. Ashley B. - Attorney General, State of Florida
Woodward, Maurice - Appellant

Resbectfiilly submitted,
ASHLEY MOODY
ATTORNEY GENERAL
/S/ Bryan Jordan______
BRYAN JORDAN
Senior Assistant Attorney General
Florida Bar No. 0194603
Office of the Attorney General
PL-01, The Capitol
Tallahassee, FL 32399-1050
(850) 414-3300
(850) 922-6674 (Fax)
crimapptlh@myfloridalegal.com
COUNSEL FOR APPELLEE
[AGO# L19-1-16145)

-2-

Case: 19-14561

Date Filed: 1 >720/2019

Page: 3 of 3

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing
APPELLEE’S CERTIFICATE OF INTERESTED PERSONS has been furnished
by U.S. Mail to Maurice Woodard, DC# 124359, Okeechobee Correctional
Institution, 3420 N.E. 168th St., Okeechobee, FL 34972, this 20 day of December,
2019.

•,/S/ Bryan Jordan
&ryan Jordan
Senior Assistant Attorney General

-3-

